U.S. Department of                                  The Inspector General         Office of Inspector General
Transportation                                                                    Washington, DC 20590
Office of the Secretary
of Transportation

May 17, 2010



The Honorable Patty Murray                           The Honorable John W. Olver
Chairman                                             Chairman
Subcommittee on Transportation,                      Subcommittee on Transportation,
Housing and Urban Development, and                   Housing and Urban Development, and
Related Agencies                                     Related Agencies
Committee on Appropriations                          Committee on Appropriations
United States Senate                                 United States House of Representatives
Washington, DC 20510                                 Washington, DC 20515

The Honorable Christopher “Kit” Bond                 The Honorable Tom Latham
Ranking Member                                       Ranking Member
Subcommittee on Transportation,                      Subcommittee on Transportation,
Housing and Urban Development, and                   Housing and Urban Development, and
Related Agencies                                     Related Agencies
Committee on Appropriations                          Committee on Appropriations
United States Senate                                 United States House of Representatives
Washington, DC 20510                                 Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

This report presents our assessment of Amtrak’s financial performance for the first
half of fiscal year 2010 (year-to-date) and Amtrak's forecasted end-of-year fiscal
year 2010 financial performance. 1 The report also includes an update on Amtrak’s
use of its recently implemented Key Performance Indicators (KPI) to gauge
company performance and the success of its reform initiatives.




1
    The Transportation/HUD Division of the Consolidated Appropriations Act of 2010, Pub.L. No. 111-117
    changed OIG's reporting requirement on Amtrak's savings from quarterly to semiannually.


CC-2010-016
                                                                                                                                                       2

SUMMARY

In the first 6 months of fiscal year 2010, Amtrak’s operating loss of $263.3 million
was $71.4 million, or 21.3 percent, better than budgeted (see figure 1). 2 However,
this is $12.2 million more than its operating loss for the first 6 months of fiscal
year 2009. The lower than budgeted operating loss was due to a combination of
higher than expected revenues and lower than expected expenses. Much of the
savings achieved in the first half of the year is expected to erode in the second half
as Amtrak forecasts a year-end operating loss of $552.1 million, just $10.9 million
or 1.9 percent better than budget, but $94.2 million more than fiscal year 2009.
While Amtrak no longer focuses on measuring savings from reform initiatives, its
new focus on KPIs appears to be an efficient approach for management to monitor
operating and financial performance to budget.

Figure 1. Amtrak Actual vs. Budget Fiscal Year 2010 Operating Loss
(Dollars in Millions)


           0      ($36.9)
                            ($74.9)
                                      ($87.7)
                ($41.6)
        (100)
                            ($83.7)              ($170.3)

                                   ($139.3)                 ($237.1)
        (200)
                                                                       ($263.3)
                                              ($211.9)
                                                                                   ($315.1)
        (300)
                                                          ($283.6)                            ($365.6)

                                                                       ($334.6)                           ($407.4)
        (400)
                                                                                  ($379.0)                           ($453.9)
                                                                                              ($420.8)                           ($492.0)
        (500)                                                                                            ($456.4)
                                                                                                                                            ($552.1)
                                                                                                                    ($494.7)
                                                                                                                                ($522.1)
        (600)                                                                                                                              ($563.0)
                 Oct         Nov       Dec        Jan        Feb         Mar        Apr        May         Jun        Jul        Aug         Sep


                                                         Budget                      Actual                         Forecast


Source: OIG analysis of Amtrak data




2
    Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
    benefits (EBITDO) basis, unless otherwise noted. EBITDO operating loss is a measure of Amtrak’s
    ability to operate within its available resources and serves as a reasonable proxy for Amtrak’s Federal
    operating support requirements.


CC-2010-016
                                                                                          3

AMTRAK’S FISCAL YEAR 2010 OPERATING LOSS THROUGH
MARCH WAS BETTER THAN BUDGETED

Amtrak's operating loss for the first 6 months of fiscal year 2010 was better than
budget by $71.4 million. This was due to a combination of higher than expected
revenues and lower than expected expenses. Table 1 details Amtrak's year-to-date
and forecasted year-end financial performance. While the Operating Loss is
significantly better than budget for the first 6 months of fiscal year 2010, it is
$12.2 million worse than the company's net loss for the same period in fiscal year
2009. Year-to-date ridership has increased from last year's levels and is higher
than budgeted, driven primarily by higher gasoline prices (which causes travelers
to seek transportation alternatives to driving), improved on-time performance, and
an improved economy. Lower expenses were driven primarily by lower benefit
expenses and a successful hedge against fuel prices. These factors are discussed in
more detail below.

Table 1: Amtrak’s Fiscal Year 2010 Financial Performance through March
(Dollars in Millions)

                                                                       Variance
                          Fiscal Year            Fiscal Year
                             2010                   2009        Favorable/(Unfavorable)
                                                                              Fiscal Year
                      Actual          Budget       Actual        Budget          2009
 Total
 Operating           $1,187.5         $1,147.6       $1,156.5         $39.9        $31.0
 Revenues
 Total
 Operating           $1,450.8         $1,482.2       $1,407.6         $31.4       ($43.2)
 Expenses
 Operating           ($263.3)         ($334.6)       ($251.1)         $71.4       ($12.2)
 Profit / (Loss)
Source: OIG analysis of Amtrak data

Amtrak is projecting a significant deterioration in its second-half operating results.
Specifically, Amtrak projects an unfavorable variance to its second half of fiscal
year 2010 budgeted operating loss of $60.4 million. This is primarily due to an
expected significant increase in wages and employee benefits compared to budget.
For the year-end, Amtrak forecasts an operating loss of $552.1 million, only
$10.9 million better than budget and $94.2 million more than last year's actual
operating loss. The difference in operating loss over fiscal year 2009 is due to an
increase of $88 million in the fiscal year 2010 Federal operating subsidy for an
expected increase in wages with no associated ridership growth. Operating
revenue is forecast to be $52.9 million more than budget and $124.6 million more


CC-2010-016
                                                                                             4

than fiscal year 2009. Increased revenues, however, are forecast to be more than
offset by operating expenses. Amtrak projects operating expenses to be
$42.0 million more than budget and $218.8 million more than fiscal year 2009.
Table 2 details Amtrak's forecasted year-end financial performance.

Table 2: Amtrak’s Fiscal Year 2010 Forecasted Year-End Financial
Performance (Dollars in Millions)

                                                                       Variance
                          Fiscal Year            Fiscal Year
                             2010                   2009        Favorable/(Unfavorable)
                                                                             Fiscal Year
                    Actual        Budget           Actual        Budget         2009
 Total
 Operating         $2,450.2           $2,397.3       $2,325.6        $52.9         $124.6
 Revenues
 Total
 Operating         $3,002.3           $2,960.3       $2,783.5       ($42.0)       ($218.8)
 Expenses
 Operating
 Profit /          ($552.1)           ($563.0)       ($457.8)        $10.9         ($94.2)
 (Loss)
Source: OIG analysis of Amtrak data

Operating Revenues

Revenues for the first half of fiscal year 2010 totaled $1.2 billion, $39.9 million
better than budget and $31 million better than the same period in fiscal year 2009.
Total passenger related revenues alone totaled $937.2 million, $35.6 million
(3.9 percent) better than budget and $38.6 million (4.3 percent) better than the first
half of fiscal year 2009. Non-passenger related revenue was also higher than
budget, primarily due to a $2.5 million settlement with a railroad tie manufacturer
as well as a one-time revenue recognition related to an advertising contract.

Ticket revenue performance was driven by higher than expected ridership (see
table 3). Amtrak's total ridership was 5.4 percent over budget, due to higher than
expected ridership along all of its major business lines (NEC spine 7.8 percent,
short distance corridors 3.8 percent, and long distance routes 4.6 percent). Within
the NEC, Northeast Regional ridership was 8.8 percent better than budget,
primarily due to higher gasoline prices, especially in the corridor north of New
York. In addition, Acela ridership was 5.7 percent better than budget. Short-
distance service also benefited from higher gasoline prices as well as from
improved on-time performance for most routes.




CC-2010-016
                                                                                                 5

Year-end forecasted operating revenues total $2.5 billion, $52.9 million better than
budget and $124.6 million more than fiscal year 2009. Net ticket revenues are
forecasted to be $1.7 billion at year-end, $43.7 million more than budget and
$99.3 million more than fiscal year 2009.

Table 3. Amtrak Ridership and Passenger Ticket Revenues, Actual vs.
Budget – Fiscal Year 2010 through March

                                          Ridership                     Ticket Revenue
                                        (in millions)                    ($ in millions)

                              Actual      Budget         % Diff.   Actual   Budget     % Diff.

NEC:†                             5.1              4.7     7.8%    $436.6    $415.3        5.1%

• Acela                           1.6              1.5     5.7%    $213.2    $205.8        3.6%

• Northeast Regional              3.5              3.2     8.8%    $222.9    $208.9        6.7%
State-Supported and
                                  6.5              6.2     3.8%    $180.3    $170.2        6.0%
  Other Corridors
Long Distance                     2.1              2.0     4.6%    $195.4    $193.5        1.0%

Amtrak Total                     13.6         12.9         5.4%    $812.3    $779.0        4.3%
Source: Amtrak
†: Total includes NEC special trains, not shown.

Operating Expenses

Operating expenses for the first 6 months of fiscal year 2010 were $1.5 billion,
$31.4 million better than budget and $43.2 million worse than the same period in
fiscal year 2009. Lower than expected expenses were primarily due to Employee
Benefits and Fuel and Power and Utilities, which were $20 million and
$8.9 million better than budget, respectively. Fuel cost savings were driven
primarily by a diesel fuel hedge strategy for about half of the diesel fuel
consumption, which consisted of contracts acting as an insurance policy against
spikes in diesel fuel costs with flexibility to be opportunistic should prices drop.
At the same time, these savings were offset by higher than expected expenses in
train operations for schedule adherence payments due to higher on-time
performance ($9.4 million), as well as an overage in Casualty and Other Claims
total ($6.9 million) due to a one-time adjustment to the liability accounts for
insurance claims.

Forecasted year-end expenses are $3 billion, $42.0 million more than budget and
$218.8 million more than fiscal year 2009 total expenses, a $73.5 million decline


CC-2010-016
                                                                                                     6

from results through March. Higher than expected expenses forecasted for the
year-end are primarily due to employee benefits, which are forecast to be
$11.7 million more than budget, representing a reversal of $31.7 million over
results through March; train operations, which are forecast to be $15.8 million
more than budget, a continued decline of $7.6 million after March; and materials
costs forecast to be $14.2 million more than budget, an additional decline of
$5.0 million due to an accounting reclassification of in-house overhaul component
work. With regards to the fuel line, Amtrak is expecting significantly higher than
budgeted train fuel costs, while increased benefit plan usage is projected due to
anticipated hiring and deferred usage from the first half for employee benefits.

KEY PERFORMANCE INDICATORS APPEAR TO BE AN EFFICIENT
WAY TO EVALUATE OPERATING PERFORMANCE TO BUDGET

Since fiscal year 2006, we have reported on savings Amtrak has achieved through
operational strategic reform initiatives (SRI) at the corporate level, by business
line, and at the route level. The SRIs were intended to improve Amtrak's operating
efficiencies and lower its dependence on Federal operating subsidies. However,
according to Amtrak officials, management was focusing too much attention on
measuring the incremental impact of a given initiative or project on savings and
not placing enough focus on total results. Given the variety of factors impacting
the company’s operating performance, officials stated that the practice of
determining the incremental impact of any given initiative on the bottom line is
inefficient and time-consuming. For example, if Amtrak’s marketing department
invests additional funds to promote Acela and revenues increase for that route,
there is no clear way to determine if or what portion of the increase is due to
higher gasoline prices, deteriorating airline service, or the marketing campaign. As
a result, Amtrak shifted from using SRIs to establishing KPIs—criteria intended to
measure both the efficiency and effectiveness of Amtrak's operational and
financial performance.

While Amtrak established nine KPIs to measure efficiency and effectiveness, we
are tracking three of the efficiency measures. Amtrak's cost recovery ratio
measures the proportion of Amtrak expenses covered by revenues. Amtrak also
established revenue per available seat mile (RASM) and cost per available seat
mile (CASM) KPIs. 3 Amtrak has exceeded its cost recovery ratio, RASM, and
CASM targets, which is consistent with our review of results for Amtrak's
operating loss, revenue, and expenses year-to-date (see table 4).



3
    The cost recovery ratio, RASM, and CASM formulas are derived using core revenues and expenses, and
    available seat miles.


CC-2010-016
                                                                                  7

 Table 4: Amtrak Key Performance Indicators, Fiscal Year 2010 through
 March


                                     Variance to Budget             Variance to 2009
Key Performance
Indicator          Actual   Budget    Amount     Percent    2009    Amount    Percent
RASM - Core
Revenue per        $0.157   $0.153      $0.005      3.0%   $0.152    $0.005      3.6%
Seat Mile

CASM - Core
Expenses per       $0.217   $0.221      $0.005      2.1%   $0.210   -$0.007     -3.3%
Seat Mile

Cost Recovery
                   72.7%     69.1%       3.6%       5.2%   72.5%       0.2%      0.3%
Ratio

 Source: Amtrak

 We analyzed other operating statistics to better understand the success that Amtrak
 has had in exceeding its targets. Year-to-date, Amtrak has operated 2.9 billion
 passenger miles, 155 million more than budgeted, while offering 6 billion seat
 miles, 54.7 million more than budgeted. Further, the load factor—the ratio of
 passenger miles to seat miles—for the first half of fiscal year 2010 was
 48.6 percent, 2.2 percent more than both budget and the previous fiscal year.

 According to Amtrak officials, KPIs provide a more streamlined way of evaluating
 performance to budget because they are derived from the annual budget and
 Amtrak operates to its budget targets. Amtrak officials also noted that because
 KPIs are linked to monthly financial statements, KPIs are tracked and updated
 much more frequently, allowing management to react quicker to changes in
 operating and financial conditions. The updates should also allow management to
 drill down into KPI detail in real time to determine what is driving any changes,
 and consequently react quicker, rather than waiting until the next month for the
 next round of financial statements. According to Amtrak’s strategic guidance,
 KPIs will be used to evaluate management and to ensure that leadership’s attention
 and effort are properly focused.

 While Amtrak has abandoned the concept of SRIs, it continues to develop
 initiatives to improve operating performance and provide additional revenue. In its
 Fiscal Year 2010 Comprehensive Business Plan, Amtrak outlined six initiatives
 aimed at producing an additional $31.6 million in revenues, with associated costs
 of $14.8 million (see table 5).



 CC-2010-016
                                                                                    8

Table 5: Amtrak Fiscal Year 2010 Improvement Initiatives

                                                            Impact on   Impact on
Improvement Initiative
                                                            Revenues    Expenses
Increase in advertising spending to increase market share
                                                              $13.2       $7.7
ridership

New state supported routes in Virginia                        $8.7        $7.1

Launch of enhanced next generation e-ticketing channel        $5.7

Partnership with Rail Europe for reservations by
                                                              $1.7
European travelers

Additional Cascades and Piedmont trains                       $2.7

Reduction in frequency of special trains                      ($0.9)

Launch of Wi-Fi on Acela trains                               $0.5

Total Fiscal Year 2010                                        $31.6       $14.8
Source: Amtrak

In addition to providing a more efficient way of evaluating performance to budget,
Amtrak officials stated that the KPIs provide for a more streamlined way to
evaluate the impact of improvement initiatives. Because KPIs are derived from the
budget plan and the plan is based on a number of factors that are intended to
improve efficiencies, management should be able to determine whether or not
improvement initiatives are effective. For example, the cost recovery ratio is
considered a target that reflects the goal of reducing reliance on Federal operating
support by virtue of increasing Amtrak’s cost recovery ratio. If this ratio shows an
increase over budget, management can assume that initiatives aimed at increasing
revenue are effective. Therefore, the plan and its many assumptions are what drive
the KPIs—RASM, CASM, and cost recovery ratio.

Using KPIs appear to be a more efficient way for management to monitor
operating performance. However, because the KPIs have only been in place for six
months, the ultimate success of this new approach has yet to be determined. As we
stated in our fiscal year 2009 fourth quarter report, in addition to reporting on
Amtrak’s financial performance, we will continue to track and evaluate Amtrak’s
efficiency related KPIs.



CC-2010-016
                                                                                 9

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
Mitch Behm, Assistant Inspector General for Amtrak, High Speed Rail, and
Economic Analysis at (202) 366-9682.

Sincerely,




Calvin L. Scovel III
Inspector General
cc:   Secretary of Transportation
      Chairman of Amtrak’s Board of Directors




CC-2010-016
